  FISCAL YEAR 2001

    AGENCY-WIDE

FINANCIAL STATEMENTS

   February 27, 2002
    To obtain additional copies of these financial statements,
visit the Office of the Under Secretary of Defense (Comptroller)
                          Home Page at
                     www.dtic.mil/comptroller/
FY 2001 Agency-wide Audited Financial Statements
               Table Of Contents




            (This page intentionally left blank)




                           ii
           FY 2001 Agency-wide Audited Financial Statements
                          Table Of Contents



                                   Section                                      Page
Message from the Chief Financial Officer                                            i
Overview of the Reporting Activity                                                1-1
   Description of the Reporting Activity                                          1-3
   Financial Condition                                                            1-9
   Systems Controls and Legal Compliance                                         1-10
Principal Statements                                                              2-1
   Consolidated Balance Sheet                                                     2-3
   Consolidated Statement of Net Cost                                             2-4
   Consolidated Statement of Changes in Net Position                              2-5
   Combined Statement of Budgetary Resources                                      2-6
   Combined Statement of Financing                                                2-7
   Statement of Custodial Activity                                                2-8
Notes to the Principal Statements                                                 3-1
Consolidating and Combining Statements                                            4-1
   Consolidating Balance Sheet                                                    4-3
   Consolidating Statement of Net Cost                                            4-5
   Consolidating Statement of Changes in Net Position                             4-9
   Combining Statement of Budgetary Resources                                    4-11
   Combining Statement of Financing                                              4-13
Required Supplementary Stewardship Information                                    5-1
   National Defense Plant, Property and Equipment                                 5-3
   Heritage Assets                                                                5-3
   Stewardship Land                                                               5-5
   Nonfederal Physical Property                                                   5-5
   Investments in Research and Developments                                       5-6
Required Supplementary Information                                                6-1
   Disaggregated Statement of Budgetary Resources (Combining)                     6-3
   Deferred Maintenance                                                           6-5
   Segment Information                                                            6-7
   Intragovernmental Amounts                                                     6-11
Other Accompanying Information                                                    7-1
   Appropriations, Funds, and Accounts Included in DoD Agency-Wide Statements     7-3
   Funds Appropriated to the President                                            7-9
Audit Opinion                                                                     8-1



                                         iii
FY 2001 Agency-wide Audited Financial Statements
               Table Of Contents




            (This page intentionally left blank)




                           iv
Fiscal Year 2001
 Department of
   Defense
   Overview




       1-1
Overview of the Department of Defense




       (This page is intentionally left blank)




                         1-2
          Overview of the Department of Defense



   Transforming Financial Management in
         the Department of Defense
The Department of Defense (DoD) has successfully demonstrated the power of joint operations
in combat. The overwhelming force demonstrated in the Gulf War, and again in Kosovo and
Operating Enduring Freedom, relied on cutting-edge technologies in synchronized tactics,
interoperable systems, and fully integrated communication channels to maximize the substantial
independent capabilities of the Army, the Navy, the Air Force, and the Marines. Similarly, the
Department intends to leverage technology, streamline processes, and integrate logistical and
personnel support systems with its financial systems to improve the Department’s efficiency and
save money.

The major management challenges in strategic planning, human capital, information technology,
acquisition, contract management, support infrastructure, and logistics all require timely,
accurate, and reliable financial information for decisionmaking. Therefore, the Secretary has
launched a Department-wide financial management reform program that affects every policy,
process, and system. Success will be measured by maximizing returns on taxpayer investment,
and by freeing up resources for weapon system modernization and readiness.



Senior Leadership, Direction and Guidance
The responsibility for achieving results rests squarely on the Department’s senior leadership.
The Secretary advised the Secretaries of the Military Departments and the Directors of the
Defense Agencies that they are accountable to the Secretary for the results of their business
operations and financial management systems. In addition, the Secretary has commissioned
teams of business experts and new management boards to provide guidance and leadership.

“Friedman” Study. At the Secretary’s direction, the Department commissioned a study to
develop recommendations for financial management improvements. Stephen Friedman,
chairman of the Columbia University board of trustees, chaired the study that identified key
deficiencies and recommended actions to strengthen and transform the Department’s financial
management processes. The final report, “Transforming Department of Defense Financial
Management: A Strategy for Change,” dated April 13, 2001, provided the foundation for many
of the changes that are taking place within the Department today.

Defense Business Practices Implementation Board. The Secretary recently established this
Advisory Board to the Department’s Senior Executive Council to provide strategies to adopt best
business practices in management, finance, acquisition, production, personnel, and logistics. The
Under Secretary of Defense (Comptroller) will capitalize on the experience of these private



                                               1-3
          Overview of the Department of Defense


sector senior executives and business leaders to optimize the Department’s financial
management transformation.

Financial Management Modernization Program. On July 19, 2001, the Secretary established a
Department-wide program to transform the systems and processes that produce or use financial
information--including those associated with supply management, personnel, acquisition, and
health care. Central to the Financial Management Modernization Program is the development of
an integrated financial management system. The Department is well on the way toward this
goal. The technical foundation for transformation of these processes and systems will be
complete by March 2003. Known as an “Enterprise Architecture” and recognized as a best
practice, this effort will define the interaction of the Department’s financial and nonfinancial
functional systems and management processes.

The Secretary established the Financial Management Modernization Executive Committee to
provide sufficient high-level leadership. A Steering Group meets weekly under the direction of
the Under Secretary of Defense (Comptroller) in coordination with the Under Secretary of
Defense for Acquisition, Technology and Logistics and the Chief Information Officer, to oversee
and to provide policy direction for the execution of all financial management reform efforts. A
Program Management Office, reporting to the Comptroller, has begun developing the financial
management technical design. That office will develop specific guidance for the use of standard
accounting data, for the reform of financial systems and business processes, and for the
interaction of nonfinancial systems and business processes.



DoD Objectives for Sound Financial Management
The Department has determined, through consultation with external experts and benchmarking
studies, that development of an integrated Department-wide financial management structure and
system is key to the management improvement efforts. The system shall have core elements in
order to produce the results as follows:

       Core elements
       · Standard accounting elements
       · Robust internal controls at critical points in the flow of data
       · Standard methods of performing accounting and budgetary transactions
       · Clear identification of costs
       · Standard business processes
       · Central control and management of financial systems and processes.
       Results
       · Comparable financial and cost accounting information for management
       · Better management from the application of reliable and usable financial data
       · Simplified capital investment process
       · Verifiable audit trails



                                               1-4
           Overview of the Department of Defense


       ·    Clean audit opinions on the Department’s financial statements.


Financial Management Progress in FY 2001
In FY 2001, the Department made substantial progress addressing financial management
deficiencies, much remains to be done and we are moving “full speed ahead.”

As important as a clean audit opinion is, it is not the Department’s only goal. Just as important is
the availability of timely, accurate, and reliable information for decisionmaking. In order to gain
the maximum benefit from our improvement efforts, we are concentrating on fixing the problems
at their source--rather than correcting bad data after-the-fact. Analysis of financial management
processes is continuing to identify these root causes of financial recording and reporting
deficiencies, as well as the fixes required.

Several near-term initiatives are underway that concentrate on improving the accuracy and
timeliness of the Department’s financial management information. We are tracking our
performance using detailed metrics and applying additional emphasis to areas where the results
are less than expected. Where needed, we have and will continue to implement revised or
expanded financial management policies to capture and accurately report financial management
information. These policies address requirements that begin at the inception of an event or
transaction and follow through to its ultimate recording and reporting in our financial
management systems.

Progress during FY 2001 is identified below. Copies of significant documents demonstrating the
Department’s commitment to progress are included in the Appendix to this Overview.


ASSETS
Fund Balance with Treasury
·   Problem: Fund Balance with Treasury remains unreliable due to unreconciled statement of
    differences and unidentified disbursements and collections posted to suspense accounts.

    Accomplishments:
    ü The Defense Finance and Accounting Service (DFAS) Denver Center improved
       reconciliation processes, procedures, and personnel training. As a result, the
       undistributed differences of Air Force general fund transactions were reduced from
       $26 million in 1998 to approximately $348 thousand in 2001.
    ü A standard Fund Balance with Treasury reconciliation training course was developed
       and, during FY 2002, it is being deployed to all of the DFAS Centers.
    ü Action is underway to implement the required Fund Balance with Treasury reconciliation
       requirements. This change will reduce the unreconciled balances.


                                                1-5
          Overview of the Department of Defense



Inventory and Operating Materials and Supplies
·   Problem: Amounts reported in this category have not included all inventory and operating
    materials and supplies (OM&S) and the valuation method did not result in auditable values.

    Accomplishments:
    ü Increased the completeness of OM&S reporting by $69 billion. This represented the
       value of missiles and other subcomponents, previously treated as National Defense
       Property, Plant and Equipment (ND PP&E) and not reported on the Balance Sheet.
    ü Changed the Department’s inventory valuation method to moving average historical cost.
       This policy change once fully implemented will result in transaction based accounting for
       inventory.


General Property, Plant and Equipment
·   Problem: General property, plant and equipment (PP&E) and related assets have not been
    fully and accurately reported in the Department’s financial statements.


    Accomplishments:
    ü Successfully presented the case to the Federal Accounting Standards Advisory Board
       (FASAB) for a revised accounting treatment for Military end items (such as aircraft,
       ships and tracked vehicles). The result is the FASAB is preparing an exposure draft,
       which is expected to support the DoD position. If adopted as expected in the exposure
       draft, the result will be full reporting of DoD’s military end items on the Balance Sheet.
       The Department anticipates the increase in General PP&E will be in the hundreds of
       billions of dollars.
    ü Reorganized the management of the Defense Property Accountability System (DPAS) to
       improve its support to more than 13,000 users world-wide. Also, established a Data
       Quality Assurance function; set up a central, state-of-the-art, call center (Help Desk); and
       expanded training. The DPAS system is used by the Army, Navy, Marine Corps, and
       most Defense Agencies.
    ü To improve financial control and reporting of property, developed a comprehensive
       property accountability directive and manual, to be issued in March 2002. The directive
       and manual consolidate separate policies contained in memorandums and regulations, as
       well as industry best practices, into a single DoD-wide mandatory policy issuance.
    ü For government furnished property, identified the root cause problem as inconsistent
       requirements between the Federal Acquisition Regulation (FAR) and generally accepted
       accounting principles (GAAP). To resolve this, DoD has prepared a proposed revision to
       the FAR, Part 45 and is working with the Office of Management and Budget and industry
       to finalize the proposal. This revision is expected to result in improved asset visibility,
       management and financial reporting of government furnished property.


                                                1-6
          Overview of the Department of Defense



LIABILITIES
Military Retirement Health Care Benefits Liability
·   Problem: Improvements are needed in the scope and accuracy of the actual cost data used as
    the basis for the actuarial calculation of military retirement health care benefits liability.

    Accomplishments:
    ü The Department has identified applicable cost data needed to accurately calculate the
       military retirement health care benefits liability.
    ü The Department is working with the General Accounting Office (GAO) and the
       Department’s Office of Inspector General to ensure that all applicable costs are
       identified.
    ü Implemented a management control program for the data systems in the direct care
       system and all Military Treatment Facilities now have data quality managers performing
       monthly reviews of data quality.


Environmental Liabilities
·   Problem: The DoD’s financial statements and environmental reports continue to
    under-report environmental liabilities.

    Accomplishments:
    ü The Department’s methodology for calculating environmental liabilities related to
       nuclear ships has been validated by the audit community.
    ü Validated the Remedial Action Cost Engineering and Requirements (RACER) model,
       that is used for estimating environmental liabilities. The validated model provides audit
       trail documentation for the liability estimate and will be used Department-wide.


OTHER FINANCIAL MANAGEMENT INITIATIVES
In addition, to specific balance sheet categories, the Department is making improvements in
other financial management areas.


Disbursements Not Properly Matched to Specific Obligations
·   Problem: Disbursements that are not properly matched to specific obligations recorded in the
    DoD’s record continue to impede efforts to improve its budgetary data. The root cause of the


                                               1-7
          Overview of the Department of Defense


    problem stems from insufficient documentation or inaccurate data necessary to properly
    match disbursements to specific obligations recorded in the accounting records. Such
    disbursements can remain unresolved for long periods of time.

    Accomplishments:
    ü To improve the Department’s performance in this area, a new policy was issued in
       January 2001 directing the DoD Components to record obligations for disbursements
       over 180 days old that have not been posted against a valid obligation. This policy
       change has resulted in a $432 million decrease in the value of disbursements over
       180 days old that have not been recorded against a valid obligation.
    ü In order to continue the progress made in FY 2001, action is underway to revise the
       criterion for determining when a disbursement must be posted to a valid obligation.
       Effective April 2002, the criterion is being reduced from 180 days to 120 days.
    ü The Department implemented the Defense Cash Accountability System (DCAS) at
       several of its finance and accounting offices. The DCAS system facilitates the electronic
       submission of accounting data vice hardcopy voucher documentation. This will decrease
       the possibilities of missing documentation or inaccurate data. The DCAS system is
       expected to be deployed to other locations during FY 2002.
    ü Implemented the Standard Contract Reconciliation Tool to compare the Mechanization of
       Contract Administration Services system entitlement data to the accounting system data.
       This comparison aligns payment data to accounting data and aids in the resolution of
       questionable disbursements and facilitates contract reconciliation.


Accounting for Canceled Appropriations
·   Problem: During a FY 2001 audit of the contract pay and reconciliation systems at the
    DFAS Columbus Center, the GAO identified 162 adjustments (over $615 million) to
    canceled appropriations that appeared to be either illegal, improper, or containing insufficient
    documentation to sustain the adjustment.

    Accomplishments:
    ü The DFAS Center has reversed 124 of the reported adjustments and provided
       documentation to the GAO for the remaining 38. To prevent future recurrence, DFAS
       implemented appropriate systems and procedural changes. Also, canceled funds
       adjustments have been added to the Management Control Review program.
    ü Revised the performance standards for technicians, accountants, and supervisors to
       include an element pertaining to canceled funds adjustments.


Human Capital
·   Problem: The Department needs to improve the skills of its financial management workforce
    and improve succession planning.


                                                1-8
          Overview of the Department of Defense


·   Problem: The Department needs to improve the skills of its financial management workforce
    and improve succession planning.
    Accomplishments:
    ü Conducted a preliminary review of the financial management (FM) workforce to gather
       data on the size and composition of the FM workforce in August 2001.
    ü Developing a roadmap for strengthening the FM workforce by developing strategies for
       enhancing technical competencies, motivating employees to pursue advanced degrees and
       professional certifications, reinvigorating recruitment and retention. The report is
       scheduled to be completed March 31, 2002, and briefed to the Comptroller.



                         Financial Statements
The DoD financial statements for FY 2001 have been prepared to report the financial position
and results of operations for the entity, pursuant to the requirements of the “Chief Financial
Officers Act of 1990” and the “Government Management Reform Act of 1994.”

To the extent possible, the financial statements have been prepared in accordance with federal
accounting standards. At times, the Department is unable to implement all elements of the
standards due to financial management systems limitations. The Department continues to
implement system improvements to address these limitations. There are other instances when
the Department’s application of the accounting standards is different from the auditors’
application of the standards. In those situations, the Department has reviewed the intent of the
standard and applied it in a manner that management believes fulfills that intent.

The statements, which are prepared from the books and records of the Department in accordance
with the formats prescribed by the Office of Management and Budget, supplement the financial
reports used to monitor and control budgetary resources which are prepared from the same books
and records.

The statements should be read with the realization that they are for a component of the
U.S. Government, a sovereign entity. One implication of this is that the liabilities cannot be
liquidated without legislation that provides resources to do so.

Assets
Total assets on the Agency-wide Consolidated Balance Sheet amount to over $707 billion. This
represents an increase of more than $90 billion over the amount reported in the FY 2000
statements. The largest contributor to the increase is in Inventory and Related Property. As
discussed in Note 9, the increase resulted from reclassifying some items formerly considered as
ND PP&E (not included on the Department’s balance sheet) to Operating Materials and Supplies
(a category of Inventory and Related Property). These items consist primarily of tactical missiles
and missile motors, aircraft configuration pods, and uninstalled aircraft engines.




                                                1-9
           Overview of the Department of Defense


Liabilities
Total liabilities on the Agency-wide Consolidated Balance Sheet amount to over $1.4 trillion--a
$400 billion increase over liabilities reported in the FY 2000 financial statements. The major
portion of this increase is due to the effect of Public Law 106-398, which extended medical
benefits to military retirees and their beneficiaries who are eligible for Medicare. Previously,
military retirees and their beneficiaries were moved from the military medical treatment plan to
Medicare when they reached age 65.

Net Cost
The net cost of operations increased by $410 billion over FY 2000. The $388 billion increase in
Military Retirement Health Benefits is the major contributor to that increase. Costs for FY 2001
include all costs necessary to establish the initial estimated liability resulting from the new
legislation. Costs for future years will include only the annual incremental costs of the program,
and thus should be significantly less than the costs reported on these financial statements.

National Defense Property, Plant and Equipment
The Department is supporting the Federal Accounting Standards Advisory Board (FASAB) in its
efforts to revise the accounting treatment for Military end items (such as aircraft, ships and
tracked vehicles). The FASAB is preparing an exposure draft, which is expected to support the
DoD position. If adopted as expected in the exposure draft, the result will be full reporting of
DoD’s military end items on the Balance Sheet.

In the meantime, given the current lack of systems to support the requirement, the Department is
suspending the reporting of ND PP&E information until such time as the FASAB adopts
permanent reporting requirements.



 Financial Management Systems, Controls
          and Legal Compliance
The Department is committed to effective internal controls and full compliance with established
systems guidelines and standards, as well as proper stewardship of the resources entrusted to it.


Systems
The Department is in the process of modernizing its financial management systems and
improving its financial reporting processes. Today, however, many of the Department’s
financial management systems do not comply with federal financial management systems
requirements, Generally Accepted Accounting Principles, and the U.S. Government Standard
General Ledger at the transaction level, and did not do so as of September 30, 2001.




                                               1-10
          Overview of the Department of Defense


The Department is unable to fully comply with applicable reporting requirements for:
(1) property, plant and equipment; (2) inventory and operating materials and supplies;
(3) Military Retirement Health Care actuarial liability; (4) environmental liabilities;
(5) intragovernmental eliminations and related accounting adjustments; and (6) cost accounting
by suborganization or responsibility segment and major program.

The Department is in the process of creating a Department-wide technical design (enterprise
architecture) that will prescribe how the Department’s financial and nonfinancial feeder systems
and management processes will interact. This architecture will guide the development of
compliant enterprise-level processes and systems throughout the Department. The Department is
collaborating with the Office of Management and Budget, the GAO, and the Office of the
Inspector General, DoD, to gain insight and support for our planned improvements to the
Department’s financial systems and processes.

Concurrently with the long-term enterprise architecture development effort, we are pursuing
near-term improvements, as previously discussed, consistent with the design of the longer-term
systems solutions. We are refocusing existing resources on fixing problems and instituting
initiatives to achieve progress in improving the Department’s financial management operations.



Controls
The Department’s “Annual Statement of Assurance” describes the systemic weaknesses
recognized by the Department, including actions taken and initiatives planned and underway.

The Department continues to emphasize adequate checks, balances, and approval requirements
for all financial transactions. Our goal is to incorporate appropriate levels of verification
throughout all of the DoD Components without requiring excessive resources or hampering the
Department’s ability to complete its mission.

A DoD-wide internal control initiative, “Operation Mongoose,” completed its sixth year as
DoD’s financial management fraud prevention and detection program. This program utilizes
state-of-the-art technology to detect and prevent fraudulent and erroneous payments.

The Defense Finance and Accounting Service is utilizing sophisticated duplicate detection logic
and state-of-the-art data mining technology to provide targeted information to Internal Review
teams allowing them to better focus in on potential internal control weaknesses. An Internal
Review of contract reconciliation procedures resulted in naming a new Reconciliation Contract
Manager, and additional training in contract management and funding laws for personnel at all
levels in the contract reconciliation process. Additionally, two systems changes to the contract
payment system were implemented during FY 2001 to resolve internal control weaknesses
reported as a result of the Internal Review.




                                              1-11
          Overview of the Department of Defense


Through the combined efforts of the initiatives described above, the DoD financial management
community expects continued, marked success in strengthening internal controls.



Legal Compliance
The Department of Defense is required to comply with a wide range of laws and regulations in
the conduct of its daily business. The primary laws governing the preparation of the Annual
Financial Statements are the Chief Financial Officers Act, the Government Management Reform
Act, the Federal Managers’ Financial Integrity Act, and the Federal Financial Management
Improvement Act. The Office of Management and Budget has issued implementing regulations
for each of these laws, which the Department has followed in preparing these Financial
Statements. As noted above in the “Systems Compliance” section, many of the Department’s
systems are not compliant with federal requirements. The Department is taking aggressive
action, however, to develop and implement financial and nonfinancial feeder systems capable of
complying with federally mandated requirements, including federal accounting standards.



                 Snapshot of the Department

Our Mission
The Department’s primary mission is to provide the military forces needed to deter war and
protect the security and national interests of the United States.



Our Resources
The Department of Defense is the nation’s largest employer, with 1.4 million men and women
currently on active duty, 687,000 civilians, and another 869,000 volunteers serving in the
Reserve Components as of September 30, 2001. We have a world-wide presence with military
and civilian personnel located in more than 130 countries, in every time zone and every climate.

The Department maintains a robust infrastructure in order to support its force structure. No other
U.S. firm owns, operates, and maintains a comparable volume of physical assets (property, plant
and equipment, and inventories).

Our personnel are located at approximately 600 fixed facilities, composed of more than 40,000
properties that occupy roughly 18 million acres of land. The Department operates and maintains




                                              1-12
          Overview of the Department of Defense


approximately 250,000 vehicles, over 15,000 aircraft, more than 1,000 oceangoing vessels, and
some 550 public utility systems.

America’s oldest, largest and most diverse “firm” operates with resources in a manner
comparable to private industry. Our annual budget in FY 2001 was approximately $315 billion.



Our Organizational Structure
Orders for military operations emanate from the President and the Secretary of Defense. The
President, as Commander in Chief of the Armed Forces, is the ultimate authority. The Office of
the Secretary of Defense carries out the Secretary’s policies by tasking the Military Departments,
the Chairman of the Joint Chiefs of Staff and the Unified Combatant Commands. The Military
Departments train and equip their forces, while the Joint Chiefs of Staff plan and coordinate
deployments and operations that are conducted by the Unified Combatant Commands. The
Defense Agencies and DoD Field Activities perform selected consolidated support and service
functions on a Department-wide basis.


Joint Chiefs of Staff
Representatives from all the Military Services support the Chairman of the Joint Chiefs of Staff
in his capacity as the principal military advisor to the President, the National Security Council
and the Secretary of Defense. The Joint Chiefs of Staff command structure consists of the
Chairman, the Vice Chairman, and the four-star heads of the four Military Services. The
Chairman plans and coordinates military operations involving U.S. Armed Forces and, as such,
is responsible for the operation of the National Military Command Center. He meets regularly
with the four Service chiefs to resolve issues and coordinate “joint” Service military activities.


Commanders in Chief
The Secretary of Defense uses the military command structure to deploy troops and exercise
military power. This authority is directed, with the advice of the Chairman of the Joint Chiefs of
Staff, to his nine combatant commanders-in-chief (commonly referred to as “CINCs”). The
CINCs have direct links both to the President and Secretary of Defense. Five CINCs have
geographical responsibility, while the remaining four have world-wide responsibility.


The Military Departments
Troops are trained and equipped through our three Military Departments--the Army, the Navy
and the Air Force. The Marine Corps, our main amphibious force, is a component of the
Department of the Navy.




                                               1-13
          Overview of the Department of Defense


Army
The Army’s mission is to defend the land mass of the United States and its territories,
commonwealths and possessions, and overcome any aggressor that imperils our nation’s peace
and security.

Throughout history, wars have been won primarily by armed forces on the ground. Only soldiers
on the ground can take and hold territory. America’s Army effectively deploys its forces and
establishes direct, continuous, and comprehensive control over land, resources, and people to
achieve victory on the battlefield and ensure peace.

Additionally, the Army’s Corps of Engineers Civil Works Program develops, manages, protects,
and enhances our nation’s water and related land resources for commercial navigation, flood
damage reduction, environmental restoration, and allied purposes. The Civil Works Program
diligently supports the Army in peacetime pursuits, during national emergencies, and in times of
war.

Navy
The U.S. Navy is America’s forward deployed force and a major deterrent to aggression around
the world. Our aircraft carriers are stationed in hot spots around the globe--in the Far East, in the
Persian Gulf, and in the Mediterranean Sea--ready to provide a quick response to any crisis
world-wide.

The Navy maintains, trains and equips combat-ready Naval forces capable of winning wars,
deterring aggression, and maintaining freedom of the seas.

Marine Corps
The call “Send in the Marines!” has been sounded more than 200 times since the end of World
War II, an average of once every 90 days.

The Marine Corps provides sea-based, integrated air-ground units for contingency and combat
operations, and for suppressing or containing international disturbances.

Air Force
The Air Force defends the United States through control and exploitation of air and space, and
provides America a rapid, flexible, and when necessary, lethal air and space capability. It can
deliver forces anywhere in the world in less than 48 hours. It routinely participates in
peacekeeping, humanitarian, and aeromedical evacuation missions. Air Force crews annually fly
missions into almost all of the nations of the world.

Reserve Components
Our active military forces are supported by the world’s premier military power multiplier--forces
of the Reserve Components, including the Army and Air National Guard and the Army, Navy,
Marine Corps, and Air Force Reserves. Within the last decade, Reserve Component personnel
have taken on new and more important roles in wartime military support, as well as


                                                1-14
          Overview of the Department of Defense


humanitarian, peacekeeping, law enforcement, and disaster assistance missions. These personnel
comprise approximately half of America’s total uniformed force.

Defense Agencies and DoD Field Activities
Title 10 U.S.C. provides that: “Whenever the Secretary of Defense determines such action
would be more effective, economical, or efficient, the Secretary may provide for the performance
of a supply or service activity that is common to more than one military department by a single
agency of the Department of Defense.” Although Defense Agencies and DoD Field Activities
perform similar support functions, in general, DoD Field Activities are smaller and serve a more
limited portion of the Department than Defense Agencies. The ability to combine common
services and supplies has proven beneficial in reducing redundancy among the military
departments and conserving scarce resources through centralized management. There are
currently 15 Defense Agencies and 7 DoD Field Activities.



        Performance Goals, Objectives, and
                    Results
The Department’s performance goals, objectives, and results are documented in the annual
performance plans as required by the “Government Performance and Results Act of 1993.” The
Department’s performance plan for FY 2001 will be submitted to the Office of Management and
Budget in the Spring of 2002.




                                     Summary
The Financial Management Modernization Program marks a turning point in the Department’s
efforts to achieve timely, accurate, and reliable information. While much remains to be done, the
Department is aggressively attacking the challenges it faces in transforming its financial
management processes and systems, and made significant progress during FY 2001. The
Secretary has put in place the needed leadership, accountability, and structure to ensure that
progress continues.




                                              1-15
       Overview of the Department of Defense



                                    Appendix

Date               Document                                                   Page

July 6, 2001       Deputy Chief Financial Officer memorandum establishing      1-17
                   the moving average cost method for inventory valuation

July 19, 2001      Secretary of Defense memorandum establishing the            1-19
                   Financial Management Modernization Program

August 21, 2001    Under Secretary of Defense (Comptroller) memorandum         1-21
                   restricting deployment of Enterprise Resource Planning
                   systems without Comptroller approval

October 12, 2001   Under Secretary of Defense (Comptroller) memorandum         1-22
                   restricting systems changes, deployments, and new system
                   initiatives without prior Comptroller approval

December 3, 2001 Joint Under Secretary of Defense (Comptroller) and Under      1-24
                 Secretary of Defense for Acquisition, Technology and
                 Logistics memorandum to David Mosso, Chairman, Federal
                 Accounting Standards Advisory Board recommending
                 modification of Statement of Federal Accounting Standards
                 No. 6




                                        1-16
Overview of the Department of Defense




                       1-17
Overview of the Department of Defense




                       1-18
Overview of the Department of Defense




                       1-19
Overview of the Department of Defense




                       1-20
Overview of the Department of Defense




                       1-21
Overview of the Department of Defense




                       1-22
Overview of the Department of Defense




                       1-23
Overview of the Department of Defense




                       1-24
Overview of the Department of Defense




                       1-25
Overview of the Department of Defense




                       1-26
